No._____
IN THE

Supreme Court of the United States
MICHAEL ELDER,

v.

Petitioner,

THE UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I, Dwayne D. Sam, certify that on this 5th day of
October, 2020, the Petition for Writ of Certiorari was
sent by first class mail to:
Jeffrey B. Wall
Acting Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
I further certify that all parties required to be
served have been served. I declare under penalty of
perjury that the foregoing is true and correct.
/s/Dwayne D. Sam
Dwayne D. Sam*
WOMBLE BOND

DICKINSON (US) LLP
1200 Nineteenth Street, NW
Suite 500
Washington, DC 20036
Telephone: 202-857-4445
dwayne.sam@wbd-us.com
*Counsel of Record

